USCA4 Appeal: 20-1078

Doc: 6

Filed: 05/21/2020

Pg:1of3

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-1078
RANDY WILLIAMS,
Plaintiff - Appellant,
v.

SOUTH CAROLINA WORKERS’ COMPENSATION COMMISSION; T. SCOTT
BECK; GENE MCCASKILL; AISHA TAYLOR,
Defendants - Appellees.

Appeal from the United States District Court for the District of South Carolina, at Florence.
Mary G. Lewis, District Judge. (4:19-cv-01340-MGL)
Submitted: May 19, 2020

Decided: May 21, 2020

Before NIEMEYER, HARRIS, and RICHARDSON, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Randy Williams, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

USCA4 Appeal: 20-1078

Doc: 6

Filed: 05/21/2020

Pg:2of3

PER CURIAM:
Randy Williams appeals the district court’s order dismissing without prejudice his
civil complaint challenging the administration of his workers’ compensation benefits. The
district court referred his case to a magistrate judge pursuant to 28 U.S.C. § 636(b)(1)(B)
(2018). The magistrate judge recommended dismissing the complaint without prejudice
for lack of subject matter jurisdiction and advised Williams that failure to file timely,
specific objections to this recommendation could waive appellate review of a district court
order based upon these recommendations.
The timely filing of specific objections to a magistrate judge’s recommendation is
necessary to preserve appellate review of the substance of that recommendation when the
parties have been warned of the consequences of noncompliance. Martin v. Duffy, 858
F.3d 239, 245 (4th Cir. 2017); Wright v. Collins, 766 F.2d 841, 846-47 (4th Cir. 1985); see
also Thomas v. Arn, 474 U.S. 140, 154-55 (1985). Although Williams received proper
notice and filed timely objections to the magistrate judge’s recommendation, he has waived
appellate review because the district court determined that his objections were not specific
to the particularized legal recommendations made by the magistrate judge. See Martin,
858 F.3d at 245 (holding that, “to preserve for appeal an issue in a magistrate judge’s report,
a party must object to the finding or recommendation on that issue with sufficient
specificity so as reasonably to alert the district court of the true ground for the objection”
(internal quotation marks omitted)). Accordingly, we affirm the judgment of the district
court.

2

USCA4 Appeal: 20-1078

Doc: 6

Filed: 05/21/2020

Pg:3of3

We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
AFFIRMED

3

4:19-cv-01340-MGL

Date Filed 01/13/20

Entry Number 42

Page 1 of 4

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
FLORENCE DIVISION
RANDY WILLIAMS,
Plaintiff,

§
§
§

vs.

§

SOUTH CAROLINA WORKERS’
COMPENSATION COMMISSION, T.
SCOTT BECK, GENE McCASKILL, and
AISHA TAYLOR,
Defendants.

§
§
§
§
§
§
§

Civil Action No. 4:19-01340-MGL

ORDER ADOPTING THE REPORT AND RECOMMENDATION
AND DISMISSING PLAINTIFF’S COMPLAINT
Plaintiff Randy Williams (Williams), proceeding pro se, filed this action seeking damages
against Defendants South Carolina Workers’ Compensation Commission (SCWCC), T. Scott
Beck, Gene McCaskill, and Aisha Taylor (collectively, Defendants) for state tort claims. The
matter is before the Court for review of the Report and Recommendation (Report) of the United
States Magistrate Judge suggesting Williams’s complaint be summarily dismissed without
prejudice and without issuance and service of process for lack of subject matter jurisdiction. The
Report was made in accordance with 28 U.S.C. § 636 and Local Civil Rule 73.02 for the District
of South Carolina.
The Magistrate Judge makes only a recommendation to the Court. The recommendation
has no presumptive weight. The responsibility to make a final determination remains with the
Court. Mathews v. Weber, 423 U.S. 261, 270 (1976). The Court is charged with making a de novo

4:19-cv-01340-MGL

Date Filed 01/13/20

Entry Number 42

Page 2 of 4

determination of those portions of the Report to which a specific objection is made, and the Court
may accept, reject, or modify, in whole or in part, the recommendation of the Magistrate Judge or
recommit the matter with instructions. 28 U.S.C. § 636(b)(1). The Court need not conduct a de
novo review, however, “when a party makes general and conclusory objections that do not direct
the court to a specific error in the [Magistrate Judge’s] proposed findings and recommendations.”
Orpiano v. Johnson, 687 F.2d 44, 47 (4th Cir. 1982); see Fed. R. Civ. P. 72(b).
The Magistrate Judge filed the Report on May 15, 2019. Williams filed his first set of
Objections to the Report (Objections) on May 23, 2019. Williams filed supplements to his
Objections twenty times between May 28,2019, and December 17, 2019 (Supplements). The
Court has reviewed the objections but holds them to be without merit. It will therefore enter
judgment accordingly.
The Magistrate Judge’s recommendation focused exclusively on the lack of a federal cause
of action alleged in the complaint, undermining Williams’s assertion of federal question
jurisdiction.

Most of Williams’s objections restate the substance of his allegations against

Defendants, without addressing the jurisdictional issues identified by the Magistrate Judge. Some
of these objections are directed at arguments not appearing in the Report at all. These allegations
are quintessential “general objections,” thus, fail to require de novo review. Id. The Court finds
no clear error on the face of the record.
Through the Objections and Supplements, Williams claims Title VII of the Civil Rights
Act, the Judicial Misconduct and Disabilities Act of 1980, the False Claims Act, the Fourth
Amendment, and 42 U.S.C. §§ 1983 and 1985 are all applicable to his case.

Within the

Supplements, Williams also makes vague allegations of violations of his constitutional and civil
rights. The complaint, however, fails to identify any of these federal statues as the basis for the

2

4:19-CV-01340-MGL

Date Filed 01/13/20

Entry Number 42

Page 3 of 4

suit, claiming violations of state medical malpractice laws, with references to a failure by the
SCWCC to properly enforce South Carolina’s worker compensation laws. Complaint at 13;
Twelth Set of Supporting Documents to Complaint at 1.
“[FJederal jurisdiction exists only when a federal question is presented on the face of the
plaintiffs properly pleaded complaint.” Caterpillar Inc. v. Williams, 482 U.S. 386, 392 (1987).
Here, the complaint states only state-law claims; no federal causes of actions are presented.
Williams has made no effort to amend his complaint to conform with the potential federal causes
of action identified in his Objections and. Supplements.

The face of Williams’s complaint

precludes this Court from exercising federal question jurisdiction over the action and the Court
will therefore overrule Williams’s objections.
After a thorough review of the Report and the record in this case pursuant to the standard
set forth above, the Court overrules Williams’s objections, adopts the Report, and incorporates it
herein.

Therefore, it is the judgment of the Court Williams’s complaint is DISMISSED

WITHOUT PREJUDICE and without issuance or service of process for lack of subject matter
jurisdiction. Further, because of the dismissal, Williams’s motion for spoliation of evidences is
DEEMED MOOT.

IT IS SO ORDERED.
Signed this 13th day of January 2020 in Columbia, South Carolina.
s/ Mary Geiger Lewis
MARY GEIGER LEWIS
UNITED STATES DISTRICT JUDGE

3

4:19-cv-01340-MGL

Date Filed 01/13/20

Entry Number 42

Page 4 of 4

s(s sfc s|« ^ 5|«

NOTICE OF RIGHT TO APPEAL
The parties are hereby notified of the right to appeal this Order within thirty days from the
date hereof, pursuant to Rules 3 and 4 of the Federal Rules of Appellate Procedure.

4

4:19-cv-01340-MGL

Date Filed 05/15/19

Entry Number 14

Page 1 of 5

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
Randy Williams,
Plaintiff,
v.

South Carolina Workers Compensation
Commission; T. Scott Beck; Gene
McCaskill, and Aisha Taylor,
Defendants.

)
)
)
)
)

C/A No.: 4:19-1340 MGL-KDW

)

REPORT AND RECOMMENDATION

)
)
)
)
)
)

Randy Williams (“Plaintiff’), proceeding pro se, filed a Complaint against South Carolina
Workers Compensation Commission and Commissioners T. Scott Beck, Gene McCaskill, and
Aisha Taylor alleging Defendants failed to properly enforce or administer the terms of his 2008
worker’s compensation award and benefits. ECF No. 1. Plaintiff seeks monetary damages. Id.
Pursuant to the provisions of 28 U.S.C. § 636(b)(1)(B) and Local Civil Rule 73.02(B)(2)(e)
(D.S.C.), the undersigned is authorized to review such complaints for relief and submit findings
and recommendations to the district judge. For the reasons that follow, the undersigned
recommends that the district judge dismiss the Complaint without prejudice and without issuance
of service of process.
I.

Discussion
A.

Standard of Review

Under established local procedure in this judicial district, a careful review has been made
of the pro se complaint. Pro se complaints are held to a less stringent standard than those drafted
by attorneys, Erickson v. Pardus, 551 U.S. 89, 94 (2007), and a federal district court is charged
with liberally construing a complaint filed by a pro se litigant to allow the development of a
potentially meritorious case, Hughes v. Rowe, 449 U.S. 5, 9 (1980). In evaluating a pro se

4:19-cv-01340-MGL

Date Filed 05/15/19

Entry Number 14

Page 2 of 5

complaint, the plaintiffs allegations are assumed to be true. Erickson, 551 U.S. at 94 (citing Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 555-56 (2007)).
Nonetheless, the requirement of liberal construction does not mean that the court can ignore
a clear failure in the pleading to allege facts that set forth a claim cognizable in a federal district
court. See Weller v. Dep’t of Soc. Servs., 901 F.2d 387 (4th Cir. 1990); see also Ashcroft v. Iqbal,
556 U.S. 662, 684 (2009) (outlining pleading requirements under Fed. R. Civ. P. 8 for “all civil
actions”). The mandated liberal construction afforded to pro se pleadings means that if the court
can reasonably read the pleadings to state a valid claim on which the plaintiff could prevail, it
should do so; however, a district court may not rewrite a complaint to include claims that were
never presented, Barnett v. Hargett, 174F.3d 1128 (10th Cir. 1999), construct the plaintiff s legal
arguments for him, Small v. Endicott, 998 F.2d 411 (7th Cir. 1993), or “conjure up questions never
squarely presented” to the court, Beaudettv. City ofHampton, 775 F.2d 1274, 1278 (4th Cir. 1985).
B.

Analysis

Federal courts are courts of limited jurisdiction, “constrained to exercise only the authority
conferred by Article III of the Constitution and affirmatively granted by federal statute.” In re
Bulldog Trucking, Inc., 147 F.3d 347,352 (4th Cir. 1998). Accordingly, a federal court is required,
sua sponte, to determine whether a valid basis for its jurisdiction exists “and to dismiss the action
if no such ground appears.” Id. at 352; see also Fed. R. Civ. P. 12(h)(3) (“If the court determines
at any time that it lacks subject-matter jurisdiction, the court must dismiss the action.”). Although
the absence of subject matter jurisdiction may be raised at any time during the case, determining
jurisdiction at the outset of the litigation is the most efficient procedure. Lovern v. Edwards, 190
F.3d 648, 654 (4th Cir. 1999).
There is no presumption that a federal court has jurisdiction over a case, Pinkley, Inc. v.
City of Frederick, Maryland, 191 F.3d 394, 399 (4th Cir. 1999), and a plaintiff must allege facts

2

4:19-cv-01340-MGL

Date Filed 05/15/19

Entry Number 14

Page 3 of 5

essential to show jurisdiction in his pleadings, McNutt v. General Motors Acceptance Corp., 298
U.S. 178, 189 (1936). See also Dracos v. Hellenic Lines, Ltd, 762 F.2d 348, 350 (4th Cir. 1985)
(“[Plaintiffs must affirmatively plead the jurisdiction of the federal court.”). To this end, Federal
Rule of Civil Procedure 8(a)(1) requires that the complaint provide “a short and plain statement of
the grounds for the court’s jurisdiction^]” When a complaint fails to include “an affirmative
pleading of a jurisdictional basis[,] a federal court may find that it has jurisdiction if the facts
supporting jurisdiction have been clearly pleaded.” Pinkley, 191 F.3d at 399 (citations omitted).
However, if the court, viewing the allegations in the light most favorable to a plaintiff, finds
insufficient allegations in the pleadings, the court will lack subject matter jurisdiction. Id.
Here, Plaintiff contends the court has subject matter jurisdiction over his claims pursuant
to federal question jurisdiction, 28 U.S.C. § 1331.ECFNo. 1 at 3. Section 1331 of Title 28, United
States Code, provides that “[t]he district courts shall have original jurisdiction of all civil actions
arising under the Constitution, laws, or treaties of the United States.” “[A] claim of federal question
jurisdiction is to be resolved on the basis of the allegations of the complaint itself.” Burgess v.
Charlottesville Sav. and Loan Ass ’n, All F.2d 40, 43 (4th Cir. 1973). Therefore, a complaint must
“contain allegations ‘affirmatively and distinctly’ establishing federal grounds ‘not in mere form,
but in substance’ and ‘not in mere assertion, but in essence and effect.’” Id. (citing Cuyahoga Co.
v. Northern Ohio Co., 252 U.S. 388, 397 (1920)). “[T]he mere assertion in a pleading that the case
is one involving the construction or application of the federal laws does not authorize the District
Court to entertain the suit.” Malone v. Gardner, 62 F.2d 15, 18 (4th Cir. 1932).
The undersigned finds Plaintiffs Complaint fails to establish any viable ground for federal
subject matter jurisdiction under 28 U.S.C. § 1331. Although Plaintiff alleges the court has federal
question jurisdiction pursuant to 28 U.S.C. § 1251, see ECF No. 1 at 3, this statute is not relevant
to this matter as it establishes the types of cases over which the United States Supreme Court has
3

4:19-cv-01340-MGL

Date Filed 05/15/19

Entry Number 14

Page 4 of 5

original jurisdiction. Additionally, Plaintiffs Complaint does not allege Defendants violated any
federal statute or constitutional provision, nor is any type of federal question jurisdiction otherwise
evident from the face of the complaint. Instead Plaintiffs Complaint references state law causes
of action, including negligence and other intentional tort claims. However, § 1331 does not
independently provide this court with subject matter jurisdiction over these state law claims.
Because Plaintiff has not shown that the court has federal question jurisdiction over his claims, his
Complaint is subject to summary dismissal. l
II.

Conclusion and Recommendation
The undersigned recommends that the court dismiss the Complaint without prejudice and

without issuance of service of process.
IT IS SO RECOMMENDED.

Kaymani D. West
United States Magistrate Judge

May 15,2019
Florence, South Carolina

The parties are directed to note the important information in the attached
“Notice of Right to File Objections to Report and Recommendation.”

l

Plaintiffs Complaint also fails to demonstrate sufficient facts to satisfy the requirements of 28
U.S.C. § 1332 for diversity jurisdiction, as he and Defendants are South Carolina citizens. ECF
No. 1.

4

4:19-cv-01340-MGL

Date Filed 05/15/19

Entry Number 14

Page 5 of 5

Notice of Right to File Objections to Report and Recommendation
The parties are advised that they may file specific written objections to this Report and
Recommendation with the District Judge. Objections must specifically identify the portions of the
Report and Recommendation to which objections are made and the basis for such objections. [I]n
the absence of a timely filed objection, a district court need not conduct a de novo review, but
instead must only satisfy itself that there is no clear error on the face of the record in order to accept
the recommendation. Diamond v. Colonial Life & Acc. Ins. Co., 416 F.3d 310 (4th Cir. 2005)
(quoting Fed. R. Civ. P. 72 advisory committee’s note).
Specific written objections must be filed within fourteen (14) days of the date of service of
this Report and Recommendation. 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b); see Fed. R. Civ.
P. 6(a), (d). Filing by mail pursuant to Federal Rule of Civil Procedure 5 may be accomplished by
mailing objections to:
Robin L. Blume, Clerk
United States District Court
Post Office Box 2317
Florence, South Carolina 29503
Failure to timely file specific written objections to this Report and Recommendation
will result in waiver of the right to appeal from a judgment of the District Court based upon
such Recommendation. 28 U.S.C. § 636(b)(1); Thomas v. Am, 474 U.S. 140 (1985); Wright v.
Collins, 766 F.2d 841 (4th Cir. 1985); United States v. Schronce, 727 F.2d 91 (4th Cir. 1984).

5

FILED: September 1, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1078
(4:19-cv-01340-MGL)

RANDY WILLIAMS
Plaintiff - Appellant
v.
SOUTH CAROLINA WORKERS' COMPENSATION COMMISSION; T.
SCOTT BECK; GENE MCCASKILL; AISHA TAYLOR
Defendants - Appellees

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Niemeyer, Judge Harris, and
Judge Richardson.
For the Court
/s/ Patricia S. Connor. Clerk

